<html>
<title> - COAST GUARD MISSION EXECUTION: HOW IS THE COAST GUARD MEETING ITS MISSION GOALS?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






   COAST GUARD MISSION EXECUTION: HOW IS THE COAST GUARD MEETING ITS 
                             MISSION GOALS?

=======================================================================

                                (113-44)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 11, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

85-898 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
                                ------                                

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
HOWARD COBLE, North Carolina         ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        RICK LARSEN, Washington
PATRICK MEEHAN, Pennsylvania         TIMOTHY H. BISHOP, New York
STEVE SOUTHERLAND, II, Florida,      LOIS FRANKEL, Florida
  Vice Chair                         CORRINE BROWN, Florida
TOM RICE, South Carolina             JANICE HAHN, California
TREY RADEL, Florida                  NICK J. RAHALL, II, West Virginia
MARK SANFORD, South Carolina           (Ex Officio)
BILL SHUSTER, Pennsylvania (Ex     
                     Officio)























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Vice Admiral John P. Currier, Vice Commandant, United States 
  Coast Guard....................................................     3

PREPARED STATEMENT AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED BY 
                                WITNESS

Vice Admiral John P. Currier:

    Prepared statement...........................................    26
    Answers to questions from the following Representatives:

        Hon. Duncan Hunter, of California........................    30
        Hon. John Garamendi, of California.......................    32

                       SUBMISSIONS FOR THE RECORD

Vice Admiral John P. Currier, Vice Commandant, United States 
  Coast Guard, responses to requests for information from the 
  following Representatives:

    Hon. John Garamendi, of California, requested details on how 
      the Coast Guard's internal acquisition enterprise operates 
      in a way consistent with the Coast Guard's planning and 
      budgeting efforts..........................................     9
    Hon. Rick Larsen, of Washington, requested justification for 
      the Coast Guard's program of record reduction for the 
      Response Boat-Medium (RB-M) from the original program of 
      record of 180 RB-Ms to the Coast Guard's new Acquisition 
      Program Baseline of 170 RB-Ms..............................    14
    Hon. Duncan Hunter, of California, requested a comparison of 
      the capabilities of the National Security Cutter (NSC) and 
      the Offshore Patrol Cutter (OPC) that indicates why the NSC 
      costs so much more than the OPC............................    21
    Hon. Tom Rice, of South Carolina, asked if U.S. shipping 
      safety standards are more stringent than international 
      shipping standards, and, if more stringent, is this the 
      reason why the size of the U.S.-flagged vessel fleet has 
      decreased..................................................    23


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
   COAST GUARD MISSION EXECUTION: HOW IS THE COAST GUARD MEETING ITS 
                             MISSION GOALS?

                              ----------                              


                      WEDNESDAY, DECEMBER 11, 2013

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Duncan Hunter 
(Chairman of the subcommittee) presiding.
    Mr. Hunter. The subcommittee will come to order.
    The subcommittee is meeting this morning to examine why the 
Coast Guard cannot meets its mission performance targets and 
whether those targets are truly achievable, as well as to 
review mission requirements and the capabilities the Service 
plans to acquire.
    As the Coast Guard's own data shows, the Service is not 
meeting its mission performance targets. In fiscal year 2012, 
the Coast Guard met less than half of its mission performance 
measures. Over the last 5 fiscal years, the Service never 
scored better than 61 percent.
    Other metrics of mission performance paint an equally bleak 
picture. For instance, the Coast Guard has reported that since 
fiscal year 2005 the total number of flight hours for aircraft 
and underway hours for cutters has declined by more than 14 
percent. The reduction in these and other metrics that judge 
mission performance are largely attributable to the fact that 
the Coast Guard's fleet of aircraft and vessels are not longer 
reliable. Most Coast Guard assets have surpassed their service 
lives and become increasingly prone to failures. Simply put, 
the Service cannot perform its missions when its aircraft and 
cutters are not working.
    For years, this subcommittee has advocated for more funding 
for the Coast Guard's recapitalization program in an effort to 
acquire new and more capable assets. The thinking was, if we 
could complete the recapitalization program of record in a 
timely manner, we could restore the capability and ensure 
mission success.
    The truth of the matter is, in this budget environment, 
there is simply not enough money to complete the program of 
record. Both the Commandant and the GAO noted that at least $2 
billion annually would be needed to build the program of record 
on schedule, but the President's fiscal year 2014 budget only 
requests $909 million for the Coast Guard acquisitions, a 41-
percent cut over fiscal year 2013. Let me repeat that: a 41-
percent cut by this administration over fiscal year 2013.
    Projected future funding for the Coast Guard acquisitions 
also falls significantly short of what is required. The Service 
reports that it does not plan to spend more than $1.1 billion 
on acquisitions in any of the next 5 fiscal years.
    The Coast Guard has taken some steps to reduce costs. For 
instance, it has reduced plan capability for the Offshore 
Patrol Cutter and worked with Congress on the potential 
transfer of aircraft from the Air Force. This morning I am 
pleased to announce that, thanks to the hard work and 
leadership of Chairman McKeon and, I would say, Bob Simmons, 
the staff director for the Armed Services Committee, the Air 
Force will soon transfer 14 new C-27J aircraft to the Service 
and avoid over $600 million in planned acquisition costs.
    However, even if sufficient funding was in place, the 
program of record does not provide the capability necessary to 
meet mission performance targets. As the charts on the screen 
indicate, building the program of record still leaves the Coast 
Guard tens of thousands of hours short of what is needed to 
meet its post-September 11th mission requirements.
    The time has obviously come for the Coast Guard to conduct 
a thorough review of its program of record and for the Service, 
the administration, and Congress to make some hard decisions 
about how to rebalance capabilities and mission requirements.
    I thank Vice Admiral Currier for being here today, for his 
service and leadership. I look forward to your insight, 
Admiral, on how to resolve this situation.
    With that, I yield to Ranking Member Garamendi.
    Mr. Garamendi. Mr. Chairman, thank you very much. I want to 
thank you for scheduling this meeting to discuss the internal 
and external factors affecting the ability of the United States 
Coast Guard to execute and fulfill its important missions and 
responsibilities.
    Admiral Currier, welcome. I am looking forward to your 
testimony.
    Oversight by this subcommittee to stay on top of the 
activities of the Coast Guard is a necessity. Why? For the 
simple reason the Coast Guard is responsible for the safety and 
security of the maritime transportation system, a diverse 
intermodal network which moves waterborne cargo valued at more 
than $649 billion annually and sustains more than 13 million 
U.S. maritime-related jobs.
    It is no exaggeration to say that the Coast Guard is 
indispensable to commerce, security, and the environmental 
protection of the United States. And, regrettably, it is also 
no exaggeration to say that our Coast Guard is overlooked, 
overworked, and underresourced.
    But that is nothing new. We have been down this road 
before, most recently at the subcommittee's hearing in February 
regarding the Coast Guard's mission balance. So I am compelled 
to ask: Exactly what new information do we expect to receive 
today?
    Should any member of this subcommittee really be surprised 
or shocked to hear the Coast Guard is failing to meet roughly 
half of its performance goals? If so, tell me why we would be 
shocked. After all, it is the Coast Guard itself who told us in 
February that the budget cuts imposed by the bludgeon of 
sequestration would force the Service to reduce by over 20 
percent its operating hours across all missions except search, 
rescue, and emergency response.
    So what has it meant? Well, off the California coast, the 
Coast Guard has had to curtail air operations by approximately 
15 percent and maritime operations by approximately 22 percent. 
Consequently, security patrol supports and critical 
infrastructure, security escorts of cruise ships and ships 
carrying hazardous cargoes, drug and migrant interdiction and 
other law enforcement operations have been reduced.
    Considering all the challenges facing the Coast Guard, 
especially those challenges related to its $29 billion 
recapitalization program, sequestration only ensures that 
underperformance will be the preordained outcome. The fact of 
the matter is that the Congress, by failing repeatedly to pass 
budgets and provide the Coast Guard with sufficient annual 
appropriation, is complicit and, in my view, the reason why the 
Coast Guard underperforms.
    Nonetheless, we often hear critics claim that the Coast 
Guard must get real, that it must adjust its performance 
targets and its operations to meet the new budget realties. And 
while there is more than a small grain of truth to that, I 
contend it is more the Congress that is living in a fantasy 
world. Considering the impacts caused by sequestration and the 
recent announcement of the chairs of the House and Senate 
Intelligence Committees stating that the threat of terrorism 
against the United States is growing, an inadequately funded 
Coast Guard presents an ill-advised gamble.
    Instead of proposing additional cuts to funding levels, we 
should be working with the administration and our colleagues on 
the Appropriations and the Budget Committee to provide the 
Coast Guard with the resources it needs. It is doubtful that 
the budget proposal that is now being discussed in the halls of 
the Congress and across this Nation will meet that challenge. 
It will not provide the resources necessary.
    The hard reality remains, you get what you pay for. And if 
the Congress continues to think it can underfund the Coast 
Guard yet expect our guardians of the sea will magically 
fulfill all of its mission responsibilities, we will simply be 
perpetuating a delusion--one that is harmful to the Coast 
Guard, to the U.S. maritime economy, and the safety and 
security of the United States and the safety and security of 
those who are on the water.
    I yield back.
    Mr. Hunter. I thank the ranking member.
    On our witness panel today we have Vice Admiral John 
Currier, Vice Commandant of the United States Coast Guard.
    Admiral Currier, you are recognized for your opening 
statement.

  TESTIMONY OF VICE ADMIRAL JOHN P. CURRIER, VICE COMMANDANT, 
                   UNITED STATES COAST GUARD

    Admiral Currier. Thank you, Chairman Hunter, Ranking Member 
Garamendi, and members of the subcommittee. Good morning, and 
thank you for the opportunity to speak about the Coast Guard's 
mission performance and our continued efforts to best serve the 
American people.
    On behalf of the Commandant and the men and women of the 
Coast Guard, thank you for your oversight and continued support 
of our service.
    The United States faces an increasingly broad set of 
maritime risks to people, cargo, conveyances, and the 
environment. These risks drive the need for effective maritime 
governance and an increased demand for Coast Guard's unique 
authorities and operational capabilities.
    As we balance the demand for our services with available 
resources in this challenging fiscal environment, tough choices 
have to be made. Unfortunately, despite our continuing efforts 
to meet all mission demands, we are not able to sustain 
effective presence, meet every demand, or conduct operations in 
all areas that are needed. However, we are making responsible 
and informed decisions through our performance planning process 
to mitigate our highest risks and to respond to the highest 
maritime threats.
    An integral component of this performance planning process 
is continually evaluating our mission effectiveness. This 
requires careful consideration, robust metrics, as well as a 
number of internal and external factors. These factors are not 
only influenced by the dynamic nature of the threats we face, 
but also by the fiscal realties that inform our performance 
targets and our budget priorities.
    The Coast Guard has missed several of our mission 
performance targets in fiscal year 2012, and we expect similar 
shortfalls in fiscal year 2013. Specifically, what concerns me 
is the Coast Guard fell short in key performance areas such as 
drug interdiction, migrant interdiction, and ports, waterways, 
and coastal security.
    In executing its drug interdiction mission, the Coast Guard 
and its partners removed 88 metric tons of cocaine from the 
Transit Zone last year. That is 19 fewer tons than 2012. Just 
to frame this, that is an uncut value on the street of over a 
half-billion dollars. Maritime interdiction of narcotics 
remains the most effective interdiction method. Moreover, at-
sea interdictions deprive transnational criminal organizations 
of profits and facilitate prosecutions that destabilize these 
criminal networks.
    As we continue to enhance security in our land borders, 
illicit maritime activity and threats to our maritime borders 
will increase. There are implications on this interdiction in 
the Transit Zone on political security in the Central American 
countries.
    Intelligence indicates in 2013 the flow of undocumented 
migrants attempting to enter the U.S. via maritime routes 
increased. Last year, we interdicted approximately 860 fewer 
individuals attempting to illegally enter the U.S., and that is 
a 28-percent decrease over prior years. The tragic loss of life 
aboard a Haitian sail freighter migrant vessel last month, 
where 30 people perished at sea, is a stark reminder of the 
need for effective presence to deter illegal immigration and to 
prevent loss of life at sea.
    Protection of the maritime transportation system is vital 
to promote the safe and efficient flow of legitimate maritime 
commerce in executing our ports, waterways, and coastal 
security mission.
    In fiscal year 2013, we conducted fewer security boardings 
and escorts of high-interest vessels, high-capacity passenger 
vessels such as ferries and cruise ships, and vessels carrying 
what is termed ``certain dangerous cargo.'' The effect of this 
reduction is difficult to quantify, but persistent levels of 
reduced activities could impact our ability to deter and 
disrupt terrorist activity. It is the same concept as the value 
of the policeman on the beat.
    While no single year's data can indicate a real trend, I 
have to express my growing concern with the erosive impacts of 
sequestration. As this subcommittee is aware, the funding 
impact of sequestration totaled approximately $340 million and 
required the Coast Guard to reduce operations by an average of 
25 percent, which impacts this ability to meet mission goals.
    In addition, critical maintenance on our aging cutters/
aircraft has been deferred, further degrading availability 
rates and long-term viability of these systems. Our cutter, 
boat, and aircraft crews are trained to minimum levels of 
proficiency.
    You know, sir, the Coast Guard's unique value is our 
ability to perform these many missions across the 11 statutory 
missions set, yet still, when called upon, react to a national 
level of contingency. This surge capability is not always 
apparent until it is needed. And it is eroding at a rate that 
should be of great concern to Congress and the American people.
    I am also concerned with the long-term effects of decreased 
funding levels of acquisition, construction, and improvement 
accounts. Speaking candidly, continued funding at current 
levels will prevent us from adequately recapitalizing critical 
assets and will ultimately increase risk in the offshore 
environment and will dramatically change the face of the Coast 
Guard.
    Our legacy major cutters, many of which were commissioned 
during the Johnson administration, continue to age. They are 
proving to be increasingly unreliable and cost-prohibitive to 
operate. This past year, we conducted emergency dry-dock 
availabilities for three of our almost 50-year-old 210-foot 
cutters due to structural deterioration. In no uncertain terms, 
these cutters are increasingly unable to carry out mission 
requirements, and ultimate concerns for the safety and welfare 
of our crews will force us to remove them from service.
    With reductions to the U.S. Navy presence in the drug 
Transit Zone, emerging operations in the Arctic, and increased 
focus on the Pacific, demands for Coast Guard services are 
increasing. Yet our ability to meet these demands is in 
decline. This reality reinforces the need to continue to invest 
and recapitalize in the offshore cutter fleet, the Offshore 
Patrol Cutter in particular.
    I would like to thank the support of Congress, the 
administration. We have gained significant recapitalization 
success through acquisitions of the National Security Cutter, 
Fast Response Cutter, the Response Boat-Medium, and other major 
projects. We are currently embarked on our largest and most 
important acquisition, the Offshore Patrol Cutter.
    There are three things necessary for major systems 
acquisition success: stable requirements, an efficient 
acquisition organization, and predictable funding. With these 
three things, we can acquire and deliver our much-needed assets 
and capabilities on time, according to specifications, and 
within budget targets.
    Clearly, we face difficult times on the way forward. We 
have made tough choices within significantly reduced budget 
authority, effectively conducting operations to counter the 
greatest maritime risks faced by the Nation while continuing to 
recapitalize our most vital assets.
    We are America's first responders in the maritime. And the 
current fiscal path foreshadows a less capable Coast Guard, 
perhaps not fully able to respond natural disasters such as 
Katrina, Sandy, the Haitian earthquake, or manmade disasters 
akin to the Deepwater Horizon oil spill. My greatest fear is 
that when our Nation calls the Coast Guard to respond in the 
future, we will be less ready, less proficient, and less 
capable of providing the standards of service that have been 
our hallmark for 223 years. Semper Paratus, our motto, our 
ethic, may not ring true.
    Thank you again for the opportunity to testify today and, 
in particular, for your support and hard work on the NDAA and 
the C-27 transfer. We appreciate your steadfast support for our 
Coast Guard. And I look forward to answering any questions.
    Thank you, sir.
    Mr. Hunter. Thank you, Admiral Currier, for your testimony.
    I will now start recognizing Members, starting with myself.
    I guess my first question is--could we put that graph back 
on the screen?
    So if my friend from California were sitting here, he might 
have sequester included in this. This does not include 
sequester. If sequester was included in this graph, those 
vertical bars would all be lower than they are. Sequester is 
not included.
    Do you have this graph in front of you, Admiral?
    Admiral Currier. No, sir, I don't, but I am----
    Mr. Hunter. Can someone get him one of these so we can go 
through it?
    The red line is the 1998 baseline of what the Coast Guard 
had to do to fulfill its requirements. The blue line is the 
post-9/11 hours required and acquisitions required to meet 
those goals. You have big cutters, small cutters, rotary-wing, 
and fixed-wing.
    So the question is, regardless of sequester--because I like 
to sit in on my Armed Services Committee and listen to 
everybody say how Congress ruined sequester while they do 
billions and billions of dollars' worth of bad programs in 
DOD--regardless of sequester, the blue line is unattainable.
    I just came back from Huntington Ingalls, where I got to go 
on the NSC and walk around on it. That is a beautiful ship, but 
it is also an almost $700 million ship that you could paint 
gray and put a Navy crew on. OK? So what you got is you got the 
best gizmo possible, the best ship you could possibly ever get, 
and in exchange for that now you are not going to have enough 
of anything else. You almost meet your requirement on the large 
cutters because of the NSC, almost, but you don't reach it 
anywhere else. And one reason for that is you probably 
overspent by $250 million, $300 million what you really needed 
for your NSC. Now, you have the best frigate in the world now 
that any Navy and any military would be happy to have, but now 
you are going to be short everywhere else, with no sequester.
    So the question is now--it is up to you to go back and say, 
the blue line is too high. We can maybe meet our 1998 line, 
that baseline, but there is no way you are going to hit the 
blue line. And I think until we, kind of, face that and realize 
that that is true, there is no fixing this. You will just fall 
short year after year after year after year and never be able 
to drill down on what you really need to get.
    So that is my question. If you look at that blue line, you 
look at the red line, regardless of sequester, are your post-9/
11 mission requirements achievable?
    Admiral Currier. Sir, thanks for that question.
    Clearly, when we look at the blue line, it was envisioned 
as the Deepwater goals that assumed, when they set that line, 
that all the systems were in place, fully funded, crewed, and 
operating to optimal capacity. That has not been achieved to 
date. While I believe that we will make progress toward the 
blue line, I tend to agree with you that we probably will not 
achieve that.
    It requires us to relook at that, revalidate that 
particular part of it, but I think I want to underscore that, 
despite numerous studies that have been done, we believe that 
the program of record is still valid.
    And I would say to you, sir, that, yes, the National 
Security Cutter is certainly expensive, it is highly capable, 
the three that we have in the water are performing outstanding, 
but there are areas that we operate where that size ship is not 
an overreach. The Bering Sea, the Gulf of Alaska, even the 
Eastern Pacific and the Western Caribbean for drug interdiction 
often have sea states where a ship of that size is really 
required to do the job.
    So while I agree with you, sir, that we certainly need to 
revalidate where we are with the unconstrained mission, our 
line, the blue line, that made the assumptions of fully 
functional and acquired and funded systems, the actual POR, the 
program of record, from the National Security Cutter down to 
the Fast Response Cutter and the aircraft pieces of it are 
still valid and have been revalidated multiple times.
    Mr. Hunter. All right. So let me get this straight. So just 
looking at this graph----
    Admiral Currier. Yes, sir.
    Mr. Hunter [continuing]. You are still saying that the 
program of record which this represents, this is your program 
of record----
    Admiral Currier. Right.
    Mr. Hunter [continuing]. That falls massively short of the 
blue line, you are saying that that is still a valid program of 
record?
    Admiral Currier. Yes, sir. And I think we will be up around 
that blue line when we get these systems fully acquired, fully 
in place, fully crewed, and fully funded. And to date, that has 
not happened.
    We are in a transit period. We have legacy assets, and we 
are driving toward the program of record. Were that bought on 
time, were that fully funded, fully crewed, fully capable, I 
don't think the blue line is an unattainable goal. But, 
certainly, in the budget environment we are in, I am not going 
to tell you in the near term we are going to make material 
progress toward that.
    Mr. Hunter. Well, I just want to get this straight. This is 
the program of record fully funded and fully capable, correct?
    Admiral Currier. Correct.
    Mr. Hunter. OK. I want to understand. This is the program 
of record that you are looking at that is fully funded. This is 
a fully funded program of record. Those are those vertical 
bars. That is if you got every single thing that you wanted, 
that is what those blue bars represent.
    Admiral Currier. Not exactly, sir. When they established 
that blue line was back--it was in a time when none of this had 
taken place. The force lay-down that you see reflected in these 
blue vertical bars is the reality of today.
    So when they established that theoretical blue line, that 
was making the assumption that we would have bought all these 
assets on time, they would be fully funded, implemented largely 
by now, and fully functioning. And that has not proven to be 
the case for a myriad of reasons. But I want to make sure we 
are in agreement on what we are looking at here.
    Mr. Hunter. I will yield to the ranking member while we 
look at that. Thank you.
    Mr. Garamendi. It seems to me that there is a preceding 
question that needs to be asked in this issue of whether you 
are able to perform to the desired level, and that is: What is 
the desired level? What is necessary to achieve the mission of 
the Coast Guard?
    And that is, presumably, the program of record. And so it 
is several years old now; it needs to be updated. But let's go 
to the history here that is the program of record that is on 
the books today that is, as I understand it, a statement of 
what the Coast Guard should be doing. Is that correct?
    Admiral Currier. Yes, sir, that generally is correct. I 
think what we established when we baselined the program of 
record were the goals that we established, Congress approved, 
where we would be capabilities-wise operationally when the 
program of record was bought out.
    Mr. Garamendi. Thank you. I appreciate that. But it is a 
statement--bottom line, it is a statement of what must or 
should be done to achieve the mission of the Coast Guard. Given 
the resources, given the allocation and so forth, you would 
want to achieve that mission. Is that correct?
    Admiral Currier. Yes, sir.
    Mr. Garamendi. OK.
    Now, then the question arises, why are you not able to 
achieve that goal? I would assume that there are several 
reasons. I think you just said there are several reasons.
    One, the acquisition program didn't work out as planned. It 
is more expensive. It takes longer. That is one reason. The 
second reason is we are not giving you the money to carry it 
out--that is, the financial resources necessary to carry it 
out.
    Are those the two principal reasons here?
    Admiral Currier. Yes, sir. I think that is true. If I could 
expand on it just for a second?
    Mr. Garamendi. Take both of those, and you can come back to 
us on the second piece, but take the first piece.
    Admiral Currier. The acquisition enterprise, I will tell 
you that, given the time in the 1980s when we kicked this off, 
the thinking on acquisition--and we had gone through a 
Government downsizing at the time--was that you could outsource 
systems integration. We found out that just not a viable way 
forward. The thinking changed. We reintegrated the acquisition 
enterprise inside our fence line, and I think we have got it 
right going on. But I can't say that there weren't errors made, 
delays incurred previously.
    And then when we look at that blue line, the assumption 
made when that line was put on paper was that we would acquire 
on time, they would be fully funded, fully crewed, fully 
operational, and by certain time gates that, clearly, we have 
not met, sir.
    Mr. Garamendi. I want to really drill on this and get down 
into this in some detail.
    There are two pieces to that blue line, which is the 
performance level that the Coast Guard wants to have. It is the 
availability of equipment being delivered, ships and planes and 
so forth being delivered on time, on budget. That didn't 
happen. There has been a long history here and numerous 
hearings about that.
    And I think your testimony a moment ago was that seems to 
be straightened away. Is that correct? Are you now operating on 
the acquisition side of this and in a way that is consistent 
with your planning and budgeting?
    Admiral Currier. Yes, sir, we certainly are.
    Mr. Garamendi. OK. I would like to see some details on 
that, the new ships, planes, and so forth.
    [The Coast Guard submitted the following information for 
the record:]

        The Coast Guard is mindful of the current fiscal 
        climate and our acquisition enterprise has worked hard 
        to ensure the assets we are acquiring or planning to 
        acquire are affordable.

        For example, the OPC acquisition strategy has been 
        designed to maximize affordability and flexibility. We 
        have incorporated lessons learned from the NSC project, 
        and many others, into the OPC acquisition to ensure 
        that it remains affordable moving forward. 
        Additionally, the Coast Guard, in close collaboration 
        with the Department, completed over a 2-year effort to 
        ensure the ship specifications represented minimum 
        requirements; making significant cost trade-off 
        decisions to balance capability and affordability 
        through extensive deliberations on speed, range, boat 
        launching requirements, and aviation capability.

        With an efficient acquisition enterprise, a stable 
        funding profile and stable requirements, I am confident 
        we can acquire and deliver assets on-time, according to 
        specification, and within an affordable budget.

    Mr. Garamendi. And also, in that regard, you are picking up 
14 C-27Js. That relieves, I think the chairman said, some $600 
million of acquisition that is planned but will not now be 
necessary. What will you do with that line item in the budget?
    Admiral Currier. Well, it gets back to the level of funding 
in the capital accounts. We were looking forward. Our 
operational gaps are in the offshore. That is where our most 
pressing need is, so that is where our capitalization focus has 
been, that being the NSC and the OPC.
    We have bought out--on the program of record, we had 36 HC-
144 aircraft envisioned. But we had gotten to this fiscal 
year--or last fiscal year, when I testified, I mentioned we had 
struck a strategic pause in that aircraft acquisition. So that 
was about halfway through the procurement of the program of 
record. We will have 18 of those 36 on contract.
    Now, what the C-27 does for us is, by acquiring those 14, 
with their capacity, is to close out that MRS aircraft mission 
requirement in the program of record. So we will basically have 
14 C-27s and 18 HC-144s and have that class of aircraft bought 
out. That $500 million to $600 million that we are estimating 
is not there, because we had taken a strategic pause. Actually, 
that money has not been appropriated at this point because it 
was in the out-years that we were looking for that requirement. 
So it is not like there is $500 million inside the CIP level 
that we could reapply. The money was not there.
    Mr. Garamendi. Oh, darn.
    Admiral Currier. Yes, sir.
    Mr. Garamendi. Well, so much for that idea.
    It seems as though we need to, as a committee and the Coast 
Guard, we need to look at and readjust, if necessary, the 
program of record--that is, what is it that the Coast Guard 
must do, needs to do, wants to do, and the money necessary to 
achieve that, both in terms of capital equipment as well as in 
personnel and the like.
    It has been some time. When was the last record?
    Admiral Currier. Well, sir, if I could take just a second 
on that. I want to be crystal-clear on this blue line, and I 
don't think I am articulating it very well to either you or the 
chairman.
    That was established as the justification for the program 
of record and the level of operations that we would achieve 
with a fully funded, on time. We have done four separate 
studies, one of which has not been completed, validating the 
program of record. Because each year this comes up; how can we 
look back at 2004 and take that requirement and carry it forth 
to 2013 or 2014 without having revalidated?
    And there has been two DHS-sponsored cutter studies, an 
additional one and one in progress that involves the 
administration and the Department, all of which have validated 
and pointed to--and I don't say this in a smug way, but each 
one of these reports has not only said the program of record is 
justified, but there is need for additional capacity, given the 
increased mission demands on the Coast Guard.
    And I say that as a matter of fact, not to be smug or to 
try to gain advantage. It is just a fact.
    Mr. Garamendi. I want to stay with this for a while because 
it is, in my mind, fundamental to our work that we have a clear 
understanding of the mission and the resources necessary to 
carry out that mission.
    I am pleased to hear that you have looked at that program 
of record, which dates back a decade. You have updated it four 
times. You have come to the conclusion, through those updates, 
that the requirements remain the same or similar. Is that 
correct?
    Admiral Currier. Yes, sir. And to be clear, these have not 
been Coast Guard studies. These have been sponsored by the 
Department, with outside, third-party looks, as well.
    Mr. Garamendi. All right. And I think you also said that 
the program of record and the four updates indicate that you 
are not able to meet some new requirements that have come about 
as a result of, for example, terrorist threats. Is that 
correct?
    Admiral Currier. Well, the 2004 program of record took into 
account post-9/11 requirements, which generally addressed 
terrorist threats and the other security concerns. We have not, 
over the years, met our performance goals every year in areas 
like that. And, I mean, there are 23 performance measures, and 
each year we grade ourselves on them, but we have not 
consistently achieved our goals across the board. You are 
correct.
    Mr. Garamendi. As I look at this and try to sort out our 
responsibilities, it seems to me that we really need, I really 
need, to have a clear understanding of the mission, its various 
elements--drug interdiction, rescue, safety, all of the things 
you do, including the terrorism requirements--and then, against 
that mission, the resources you need to carry it out at the 
optimal level.
    Recognizing the realities of the budget and appropriations, 
we are tasked with two decisions. One is your analysis of 
optimal performance to meet all those missions. We need to 
correct, the overstating/understating, we have to make that 
judgment. And then we have the obligation of providing the 
resources based upon that judgment. Failing to do both of those 
things is something that creates this burden that we must not 
have.
    That is where I am coming from, Mr. Chairman. You have 
given me 5 extra minutes. You are most generous. Thank you very 
much.
    Mr. Hunter. I thank the gentleman.
    Mr. Coble from South Carolina is now recognized.
    Mr. Coble. North Carolina.
    Mr. Hunter. Excuse me, North Carolina. They are all the 
same to us Californians. I am sorry.
    Mr. Coble. That is a very delicate boundary you are walking 
there, Mr. Chairman.
    Good to have you with us, Admiral.
    Chairman, you and the ranking member may have already 
touched this with the Admiral. And, as you know, Mr. Chairman, 
when it comes to the Coast Guard, I am not objective; I am very 
subjectively involved. So I will try to insert some objectivity 
into the question.
    Admiral, I will ask you--and, as I said, you may have 
already plowed this ground earlier today. What were the primary 
reasons for the failure of the Coast Guard to better achieve 
its own mission performance measures, A? And, B, what steps is 
the Coast Guard taking to improve its performance? And I 
realize assets, or lack thereof, may be part of the problem.
    Admiral Currier. Thanks for that question, Congressman. It 
is great to see you, sir.
    It is a little bit--as always, I can't give a simple answer 
to this because we have to talk just a little bit about what 
these mission performance goals really are. They are self-
generated. They are made up of multiple factors, not the least 
of which is the Government Performance and Results Act, GPRA.
    So we established these internal requirements and goals. We 
passed them through strategic screening. The flaw, in my 
opinion, on these performance goals is, part of it, when you 
establish them, you look at historical levels of funding, and 
when you are in a declining level of funding, then that biases 
your ability to achieve the performance goals because they made 
the assumption you were funded at a higher level. So that is 
kind of a trick that happens that we do to ourselves.
    We run it through a strategic planning process. We come out 
with goals that are given to the operational commanders with a 
caveat that they have some flexibility, based on whether they 
are in California or North Carolina or where they are, to 
adjust according to the local requirements.
    When we aggregate these goals at the end of the year, 
oftentimes we exceed them, sometimes we don't. We could walk 
through each of the 23 and provide a detailed explanation on 
why.
    But to categorize it in real generalities on us not having 
the equipment or the funding, the only thing I could say about 
this is, as I have explained these performance measures, it is 
virtually impossible for us to meet many of them, some of which 
are aspirational, in a declining budget environment when their 
levels were informed by previous funding levels.
    I am not sure I am making that clear. I hope I am, sir, 
but----
    Mr. Coble. I think so.
    Mr. Chairman, I yield back.
    Mr. Hunter. I thank the gentleman from North Carolina.
    The gentleman from Washington, Mr. Larsen, is now 
recognized.
    Mr. Larsen. Thank you, Mr. Chairman.
    Admiral, last month, the Coast Guard released a business-
case analysis for reactivating and extending the service life 
of the Polar Sea and the icebreaker. That report found that the 
Polar Sea would cost $99 million to reactivate and then provide 
7 to 10 years of service to the Coast Guard. How does that 
compare with the cost of building a new icebreaker?
    Admiral Currier. Sir, the comparison of cost, our estimate 
for a new icebreaker from a cold start is about a billion 
dollars. And, as you said, the estimate in the business-case 
analysis for Polar Sea would be in the $99 million to $100 
million range to buy 5 to 7 years of service life. So that is 
also the difference is, what you are actually buying for that 
$100 million.
    Mr. Larsen. Right. Right.
    On page 4 of the findings, the BCA notes that current 
requirements do not justify the need for heavy icebreaking 
capability in the Arctic. Is that statement not in conflict 
with the Coast Guard's own assessment of needs in the Arctic 
Strategy document issued earlier this year?
    Admiral Currier. No, sir, I don't think it is. I mean, if 
you are asking how do we go forward with the acquisition of a 
new icebreaker and how do we establish the requirements for 
that ship, that would be a whole-of-government solution. What I 
don't want people to think is that the Coast Guard is 
advocating or looking to procure a new-start icebreaker for a 
billion dollars that is strictly to address Coast Guard 
requirements.
    Two caveats on the new start of the icebreaker. One is it 
needs to be a whole-of-government solution where the National 
Science Foundation, the Department of Defense, and everyone 
else that has a stake in the Arctic contributes to the 
requirements build and, ideally, contributes to the financial 
solution, the funding of the ship. Because a billion dollars is 
clearly not something we can absorb in our out-year acquisition 
accounts.
    Mr. Larsen. So what will the Coast Guard do now with the 
Polar Sea? Will you go forward with reactivating the Sea now 
that the BCA has made clear it is a cost-affordable option? 
What is the plan now?
    Admiral Currier. Well, Polar Star got underway for the 
South Pole, which is a success after----
    Mr. Larsen. Yeah.
    Admiral Currier [continuing]. A $62 million overhaul.
    We currently have the option, to be honest, Congressman, on 
the Polar Sea. It is cold iron tied up in Seattle, at this 
point. We have not been appropriated funds to reactivate that 
ship. We have been appropriated seed money to start the 
requirements generation on a new polar icebreaker, but we have 
no plans at this point to reactivate Polar Star.
    Mr. Larsen. Polar Sea.
    Admiral Currier. I am sorry. Yes, sir. Polar Sea. Thanks.
    Mr. Larsen. Sure.
    I will switch gears a little bit here to the RB-Ms, 
Response Boat-Medium. In section 220 of the Coast Guard Act in 
2012, it required the Commandant to maintain an approved 
program of record of acquisition of 180 RB-Ms. My understanding 
is that last month you all signed a smaller acquisition request 
for 170 boats.
    We submitted a--or, actually, I submitted a question on the 
record on this issue from our last hearing asking for 
justification for the smaller request. We haven't received that 
answer, so I will ask again.
    Admiral Currier. Thank you, Congressman.
    There are two documents in circulation. One is an 
acquisition program baseline that authorizes or cites our 
program of record at 170 boats. And that is with the Department 
for review and will be en route to Congress, visible by your 
office shortly.
    And then there was an operational validation of the number 
of boats actually needed, which came out to be 167 boats. And 
that is a report to Congress that is under review at this time 
by the administration and will become visible very shortly.
    Mr. Larsen. Is that revised program of record going to just 
have a different number, or is there going to be some 
justification written into that?
    Admiral Currier. Yes, sir, both will justify the numbers. 
It is 167 required operationally, and we are going for 170 on 
the program of record. And I believe that the extra boats will 
be spares to enhance our operational readiness.
    To be clear, on the RB-M, which is built at Kvichak Marine 
in Kent and also in Wisconsin, it is an unbelievable success 
for us from an acquisition perspective. The boat is performing 
above our expectations, which caused us to reevaluate the 
number we actually needed. It is a fantastic boat, and we are 
having great luck with it. A lot of it is due to the quality of 
workmanship that comes from the Kent facility.
    Mr. Larsen. All right. We look forward to getting that and 
getting back with you about our thoughts about it.
    [The Coast Guard submitted the following information for 
the record:]

        The Coast Guard reanalyzed its requirements for the RB-
        M acquisition and determined that 166 boats are 
        sufficient to meet operational needs as reflected in 
        the Fiscal Year 2013 President's Budget request. The 
        RB-M has proven to be more capable than originally 
        envisioned, and, in addition to its substantially 
        increased speed and range compared to the 41-foot 
        Utility Boat it replaces, can safely conduct missions 
        in up to 12-foot seas and 50-knot winds. Also, crew 
        habitability on the RB-M is significantly improved over 
        the previous fleet of boats, which contributes greatly 
        to mission effectiveness.

        In the 2013 Coast Guard Acquisitions, Construction and 
        Improvement appropriation, funds were appropriated 
        above the President's request for acquisition of four 
        additional RB-Ms. As a result, the Coast Guard has 
        adapted boat siting plans for 170 RB-Ms and revised the 
        RB-M Acquisition Program Baseline. The new 170-boat 
        Acquisition Program Baseline was approved by the Coast 
        Guard Acquisition Executive, Vice Admiral John P. 
        Currier, on November 25, 2013.

    Mr. Larsen. Thanks a lot.
    Thank you, Mr. Chairman.
    Mr. Hunter. Thank you.
    The gentleman from South Carolina, Mr. Rice, is now 
recognized.
    Mr. Rice. Thank you, Mr. Chairman.
    Looking at the Coast Guard missions listed here, 11 
statutory missions, to fully implement these--and looking, 
also, at this table that shows how many of these missions were 
met and how many weren't met, it looks like we are about 50/50 
here.
    What would you suggest--I mean, perhaps--I guess, how much 
money would it take, first, for you to be able to meet all of 
your missions as listed, these 11 missions here? How much money 
do you think is the shortfall that prevents you from--or is it 
money? Is it some other failure other than money?
    Admiral Currier. Well, sir, as you see from that table, 
that is a complex equation.
    Mr. Rice. Right.
    Admiral Currier. I would say it is not only money. It is 
the refining of our ability to set these performance goals that 
we hold ourselves and you all hold us responsible for.
    Mr. Rice. Yes, sir.
    Admiral Currier. The process is somewhat flawed, in that 
one of the assumptions it uses as a foundation are previous 
levels of funding. And that biases it to a negative side when 
you look at the next year. You assumed you were going to get 
more than you got. So how did you perform at that projected 
level?
    Mr. Rice. Right.
    Admiral Currier. And so part of it is that. And part of it 
is funding. If we achieve the level of funding that we need in 
the capital accounts, as we bring these new assets on line, 
they are going to contribute to the successes that we need in 
our own performance goals.
    Mr. Rice. How much more annual funding would the Coast 
Guard need to fully fund everything it would want and carry out 
all its missions?
    Admiral Currier. Sir, that is a difficult question. I can 
address the capital accounts. The Commandant has been on record 
saying a $2 billion annual capital account, AC&I account for 
the Coast Guard.
    Mr. Rice. $2 billion?
    Admiral Currier. Yes, sir.
    Mr. Rice. More or $2 billion total?
    Admiral Currier. No, $2 billion total.
    Mr. Rice. OK. How much are they getting now?
    Admiral Currier. Well, over the last few fiscal years, we 
have averaged between $1.2 billion and $1.4 billion.
    Mr. Rice. OK. All right. So about a 50-percent increase.
    Admiral Currier. And then the budget that is--the 2014 
budget is significantly less than that.
    Mr. Rice. All right. Well, you know, everybody knows that 
we are spending far more money than we take in, almost 40 cents 
on the dollar, and that additional 50-percent increase is 
probably not a realistic thing. So we have to look for 
alternatives, and, you know, I don't know what those would be.
    Particularly, I am interested in your recommendations, 
should we scale back on these missions? Should we eliminate 
some of them? Should we just go into it knowing we are going to 
fail in some and accept that? Or should we try to shift some of 
these missions to other entities? What should we do?
    Admiral Currier. Sir, for 223 years, we have been trying to 
meet the expectations of the American public in the maritime. 
These 11 statutory missions, we can adjust capacity around, but 
we feel giving up the capability on any of these missions would 
violate the intent of Congress and certainly the law.
    Mr. Rice. You know, I am sitting here looking at this list, 
and, I mean, obviously, I know that the Coast Guard's missions 
are incredibly important to the security and sovereignty of 
this country. And when you look at search and rescue, I mean, I 
have spent a lot of time offshore fishing, and believe me, the 
fact that the Coast Guard is there, thank God I have never had 
to call on them, but knowing that they are there means a lot. 
And then the aids to navigation, obviously, coastal security, 
drug interdiction, migrant interdiction, I agree.
    But, you know, we know that we are not going to meet these 
funding goals that you would like to see to fully meet all your 
missions. So we know that. So how are we going to fix it? How 
are we going to bring the two lines together? What can we 
eliminate? What can we move to make sure that we succeed in the 
priorities that we have?
    Admiral Currier. Sir, you know, I will be honest. It is 
very difficult for me to give an answer that is not looking 
through the lens of my service. But I will tell you, as we have 
wrestled with this problem with our own department, we have 
taken hard looks at the mission set. And the latest one is in 
the portfolio review that we have enjoined between the 
Department and the national security staff. And every time we 
have a meeting and we come in and we look at areas that could 
be reduced or cut off that 11 mission list, people will come to 
the conclusion that there is really--no one wants to take the 
responsibility for reducing performance in those mission areas. 
As a matter of fact, generally what we find is people will come 
to the meetings and say, well, wait a minute, how about this, 
how about that, and add to the portfolio.
    So it really is almost impossible for me to offer you what 
we shouldn't do to protect the maritime public. Because I can 
tell you, in that list of performance indicators or in the list 
of the 11 mission sets, there is nothing that doesn't 
materially add to the security and safety of the people that 
use our waterways; there is nothing. Is it less aids to 
navigation? Is it less search and rescue? Is it less ability to 
search through a Katrina? I just can't tell you.
    Mr. Rice. Well, you know, I mean, there are excesses in 
every department, in every entity. I have been, I mean, I am 
not talking about once, I am talking about numerous times, on 
the waterways around my area and seen a Coast Guard boat 
checking people right next to a sheriff's deputy boat and a DNR 
boat. So, I mean, there is obviously redundancy that perhaps 
doesn't need to be there.
    And while I agree that it is important that, you know, the 
Coast Guard should be out there on Saturday afternoon checking 
people's life jackets, some of these other things are more 
important. And I think maybe if we know that we are not going 
to have the money to fully fund everything, that maybe we 
should prioritize those things and use our resources in the 
most efficient and wise way.
    Admiral Currier. Yes, sir. And I offer this counter to your 
question, your answer to your question, not in a flip way but 
in an honest way. So those people that are--and we have 
interagency partnerships all over the place, and it really adds 
to it, and it reduces our requirement to be out there, to be 
perfectly honest.
    But that boat that is checking life jackets on Saturday 
afternoon is the same boat that is going to have to go 40 miles 
offshore to get somebody in 8-foot seas. But by checking those 
life jackets, hopefully--and we empirically can demonstrate 
this--it reduces the chances that they will have to go 40 miles 
offshore and rescue somebody.
    So search and rescue has been a shrinking enterprise, to a 
certain extent, mainly because of the enhancements that have 
occurred in hardware, in radios, in GPS, in boating safety 
standards. All of those things are affected globally by the 
Coast Guard, but they are all interrelated.
    So, you know, I don't mean to be argumentative, but it is a 
system that works to great effect.
    Mr. Rice. And I understand and don't argue that. The only 
point that I am trying to make is, we know we are not going to 
have these 100-percent funding levels. We know that. And so, 
shouldn't we prioritize among these various missions to most 
efficiently utilize the funds that we have?
    Admiral Currier. Yes, sir, I think that is where we are 
going to have to be. I agree with you.
    Mr. Rice. Thank you, sir.
    Mr. Hunter. I thank the gentleman.
    A couple things, Admiral. Playing off of what Mr. Rice just 
talked about, it seems that there is a period of time with 
organizations, whether it is the Coast Guard, the military, or 
other entities, where if you can come to Congress and say, ``We 
are only making half of what we are supposed to be doing with 
what you are giving us,'' over and over and over, at some point 
Congress goes, ``We need to give them all of that money so they 
can get 100 percent.''
    I think the Coast Guard is trapped in that phase right now, 
where if they came in 60 percent, 60 percent, 60 percent, we 
are never going to reach the blue line, the reality is the blue 
line needs to move down. Because if you have checked and 
rechecked and validated four times the acquisition requirements 
to that blue line, to those missions sets that you have, then 
that is fine, but that means that the mission sets need to be 
validated.
    And I know that when you go in these meetings and everybody 
wants something else, that that is how you get a $700 million 
NSC, that that is how you get Deepwater, is you have 
requirements added on, added on, added on while they are still 
designing. Then you start building and doing requirements at 
the same time and doing design change, and then you add 
hundreds of millions of dollars onto your shipbuilding cost. 
And that is how you get to the whole scuttled program that you 
had big problems with, right?
    So the missions need to change and the missions need to be 
prioritized so you can at least say, ``We are meeting 90 
percent of our mission requirements, and here is how we have 
changed those.'' And when people come in and want more and more 
from the Coast Guard, the Coast Guard needs to be able to say 
no. And I don't see that happening with that blue line staying 
where it is. It needs to come down. Because the bottom line 
isn't moving up. It is not going to happen.
    Number two, there are things, when it comes to vessel 
certification, that ABS can do, the American Bureau of Shipping 
can do, that the Coast Guard doesn't need to concern itself 
with, where you can have them do that and carry out the Coast 
Guard's mission when it comes to certification. It would be 
more efficient, more effective, and more cost-saving not just 
for the Coast Guard but for the entities that you are 
certifying, whether that is tuna vessels or whether that is 
offshore resupply for oil rigs in the gulf.
    There are things that other organizations can do that the 
Coast Guard doesn't necessarily have to, especially if you want 
to focus on your core competencies. Because the reality is, 
Admiral, that you can't make everything your core competency. 
Every businessman knows that and every military knows that. The 
Army is not going to build a bunch of amphibs. The Marine Corps 
is not going to try to do a land war. The Navy is not going to 
go build runways to fly an F-35 off of. Everybody has their 
core competency.
    And I think the Coast Guard is in place where you are 
saying everything from search and rescue to vessel 
certification to Marine safety to drug interdiction to 
military--you cannot be all things to all people when you are 
getting less of a piece of that pie than anybody else is. So 
that is what is going to have to change, because you cannot 
make everything your core competency.
    Have at me.
    Admiral Currier. OK, sir. Well, first of all, I would say 
that your comments on Deepwater, I would not dispute that. But 
I want to make it crystal-clear that it is in the past, and 
where we are today in acquiring these systems, the mechanism of 
acquisition, the stability of the requirements are there. The 
third leg in that stool----
    Mr. Hunter. They are. I agree.
    Admiral Currier. The third leg in that stool, sir, is the 
predictable funding.
    OK, set that aside. I had to say that because I was part of 
the redesign of the acquisition enterprise.
    You know, Congressman, to be perfectly honest with you, we 
have 11 statutory missions. You know, when the Commandant is 
not there, I sit on the Joint Chiefs, and I have friends at 
that level; the vice service chiefs are all very close. They 
have a different mission set. You know that, having been a 
former Marine. Go in, take the beach, establish dominance; 
those things they do.
    Ours is much more diverse, but it is grounded in law, it is 
grounded in statute. So it is not discretionary on our part, 
necessarily, to say we are not going to do certain things.
    Mr. Hunter. I understand. But here is what we are asking 
you, I think. And I think this goes for everybody. Here is what 
we are trying to get from you. If you can't make mission based 
on the missions that you have now, your statutory missions, we 
would love to hear from you what needs to change there, as 
opposed to foisting upon you mission changes and saying, here 
is what your new missions are.
    And we are trying to get from you, here is what I would 
look at if I were you. Because if you have to change it 
statutorily, we can do that. That is why we are here. But we 
would love to have input from you and from the Coast Guard on 
how to do that as opposed to us doing it blind.
    I mean, John and Jeff can do a great job at that, but we 
would much rather have you tell us now, hey, here are some 
places where I think and the Coast Guard thinks that we should 
scale back in order to improve our search and rescue or 
interdiction capability; here are the places where we would 
farm that out a little bit or we would lease that out or we 
would give that to ABS or those types of things.
    Otherwise, you force us to come up with those things for 
you, and we are not as smart as you are on the things that you 
do.
    Admiral Currier. Well, Congressman, I think that dialogue 
can take place. Of course, we have equities with the Department 
of Homeland Security and the administration on that. But----
    Mr. Hunter. But you say these are statutory missions, 
right? So how do you get a statutory mission?
    Admiral Currier. But our relative weighting of what we 
suggest that could be scaled down or scaled or eliminated, you 
know, we would not unilaterally come to you with that. We are, 
as you know, part of the Department of Homeland Security, and 
they have codependency with us in our mission sets. So it 
wouldn't just be the Coast Guard saying that.
    But if your staff and our staff want to enjoin that 
conversation, then we are not going to object to it. But it is 
going to be a complex undertaking.
    Mr. Hunter. But right now you wouldn't say that there is 
any part of your statutory mission set that you would scale 
back on or prioritize higher?
    Admiral Currier. I would say, sir, that based on what I 
know of the Coast Guard, the interdependency of our mission set 
and what we deliver as a system to the American public, it is 
very difficult, and I would not be prepared today to offer you 
candidates for a reduction one over another. I just couldn't do 
it.
    Mr. Hunter. OK. Thank you, Admiral.
    Mr. Garamendi is recognized.
    Mr. Garamendi. I want to carry on from where the Chair was 
going with this question.
    Eleven statutory missions. You are working in an 
environment, physical environment, and leaving that aside, are 
also subject to the political environment here in Washington, 
the prioritization and the amount of money available year-to-
year to carry out those 11 statutory missions that is not made 
by the Coast Guard alone. You only need to look at the 
President's budget to determine that, I don't know, some $400 
million was reduced from previous levels by the administration.
    So you are operating in an environment administered by the 
Office of Management and Budget and within the Department of 
Transportation where priorities are made, resulting in a 
budget, in this case the President's budget, which is your 
budget. Like it or not, that is your budget.
    From this point of view--and I was in your seat not a 
decade ago, a little longer than that, and dealing with all of 
that internal administrative give and take. I am in a different 
seat now, looking at it from a different point of view. And 
what I need to know and I think this committee needs to know 
is, what does the Coast Guard need to carry out the 11 
statutory missions that you have?
    Not after being reviewed by the Department of Homeland 
Security first and then by the Office of Management and Budget 
and then given to us, which is a different document than what 
the Coast Guard might--no, excuse me, the Coast Guard would put 
out on its own.
    I don't know that you are going to be able to go there 
unless we force you to go there by asking very specific 
questions that require you to respond to us directly, 
understanding that--in other words, going past your chain of 
command.
    I think we need to do that, Mr. Chairman. It is a complex--
it is something that we need to do, taking into account each of 
those 11 statutory missions and then asking the Coast Guard 
specifically what it needs to do, recognizing that they are in 
a big bind, having to go up through the Secretary and then to 
OMB and then back to us. But I think we can get a better fix on 
what is actually necessary, those 11 missions, to be carried 
out.
    So I am going to try to formulate that and, working with 
you and others, try to ask the Coast Guard very specific 
questions about the 11 missions so that we can then get a 
baseline of what is necessary to achieve an appropriate level. 
And then we are going to have to make a decision on our side, 
and that is to prioritize--the word you used in a conversation 
with me just a few moments ago.
    Right now we are kind of in the dark. We are dealing with 
ancient history, in many ways. We are obviously dealing with 
the internal administrative priorities of the administration, 
understandably. But we have to, I think, get a different view 
of this.
    So I am going to make it my task and David's task over the 
next several weeks to try to lay out a series of questions that 
go to the heart of that and then come back hopefully by the 
time we do an authorization bill here.
    Leaving that aside, I have a series of other questions that 
deal with tiny things. You know, I don't want to take a lot of 
time in this committee. I am going to ask them in writing. I am 
just going to quickly go through the subject areas, not asking 
you to respond to them right now. There is a series of things 
that have come to my attention by various interested parties.
    We have talked about the level of funding. I will let that 
go for now.
    Maritime education and training institutions are concerned 
about a lack of interaction between the Coast Guard and those 
institutions on what the educational requirements are. You 
really ought to be consulting with them before you march off 
requiring educational programs that may or may not be able to 
be put in place. So I will put a specific question to you.
    There is a question about maritime licensing examinations, 
whether the Coast Guard is really up to the challenge of that. 
And I will get that question to you.
    Another question about the Standards of Training, 
Certification, and Watchkeeping for Seafarers, the standards: 
How you are putting those out? Are they consistent? Are they 
going beyond what ought to be required? Again, a series of 
questions.
    Almost every one of these go to interaction and 
communication with the interested parties. And, as I look at 
it, you are doing it on your own. You really need to bring 
these interested parties in to help you understand the full 
implications of what you are proposing.
    I will let it go at that. You will have specific questions, 
and, of course, I am sure you will respond in an appropriate 
and timely way.
    I yield back.
    Mr. Rice. Mr. Chairman, I just have one more comment with 
respect to your comment----
    Mr. Hunter. The gentleman is recognized.
    Mr. Rice. I just wanted to point out that, as the country 
music song says, it is heads, Carolina--this goes to the 
chairman and the ranking member--heads, Carolina; tails, 
California.
    Mr. Hunter. I thank the gentleman.
    I just have one last thing to bring up, too, and that is, 
as you are looking at the cost, the acquisition cost, 
especially the OPC and the NSCs and the requirements that those 
boats have, I think right now--because looking at the OPCs, a 
couple of the submissions that were accepted in the--I think it 
was the top five you have narrowed it down to now, the top five 
submissions for the OPC, and what the NSC is and how cheap it 
will be as you get to ship number eight or nine and what the 
different mix of those is that you really need if they almost 
do the same thing. And from what I could see, they almost do 
the same thing. There is stern launcher and recovery, which was 
not required on the OPC; same sea states; same--there is a 
different propulsion system between the OPC and the NSC. And 
there is not much more difference than that in their abilities.
    And at the same time, you have a $700 million price tag 
compared to a $250 million projected price tag. So you have a 
big discrepancy there with just a few things that would account 
for the $500 million in difference. And those numbers just 
didn't add up to me.
    So I would say a question for the record from me is, if you 
could give me a breakdown of those things. And I have seen 
breakdowns done by outside parties where you have the NSC, OPC, 
and FRC and the different mixes. But I would just like to hear 
the justification for the discrepancy in the cost for that 
delta based on what things, right, whether it is propulsion or 
stern launch and recovery and that kind of thing.
    [The Coast Guard submitted the following information for 
the record:]

        The table below shows a comparison of top-level 
        requirements between the Offshore Patrol Cutter (OPC) 
        and National Security Cutter (NSC).


------------------------------------------------------------------------
             Capability               OPC (Threshold)          NSC
------------------------------------------------------------------------
Seakeeping                           Sea State 5--      Sea State 5+ --
                                      Boats and          Boats and
                                      Helicopter         Helicopter
                                      Operations         Operations
------------------------------------------------------------------------
Range & Endurance                    8500NM & 45 Days   12000NM & 60
                                                         Days
------------------------------------------------------------------------
Boats & Aviation (Hangar)            2 boats & H-60/    3 boats with
                                      Vertical           stern launch &
                                      Unmanned Aerial    H-60/VUAV (2 H-
                                      Vehicle (VUAV)     65s)
                                      (1 H-65)
------------------------------------------------------------------------
Speed                                22 knots           28 knots
------------------------------------------------------------------------
Accommodations                       120                146
------------------------------------------------------------------------
Command and Control                  Limited            NATO
                                      integration &      interoperable,
                                      interoperability   Integrated,
                                                         Link
------------------------------------------------------------------------
Surface Combat Capability            Medium Caliber     Medium Caliber
                                      Deck Gun, Small    Deck Gun, Close
                                      Caliber Anti-      In Weapons
                                      Terrorism and      System (CIWS),
                                      Force Protection   Small Caliber
                                      (ATFP) Weapons     ATFP Weapons
------------------------------------------------------------------------
ASCM Defense Capability              Soft Kill          Hard & Soft Kill
                                     Provides a         Provides both
                                      passive defense    passive and
                                      capability to      active defense
                                      divert missile     to detect,
                                      threats            track, and
                                                         eliminate the
                                                         threat through
                                                         weapons systems
------------------------------------------------------------------------
CBRN Capability                      Countermeasure     Collective
                                      Washdown           Protection
                                     To support the      System &
                                      evacuation from    Countermeasure
                                      a contaminated     Washdown
                                      environment       Provides a
                                                         system to
                                                         support the
                                                         continued
                                                         operation in a
                                                         CBRN
                                                         contaminated
                                                         environment
------------------------------------------------------------------------
Intelligence Gathering               Limited (Space,    Full SCIF
                                      Weight, and
                                      Power reserved)
------------------------------------------------------------------------


        The Coast Guard, in close collaboration with the 
        Department, completed over a 2-year effort to ensure 
        the OPC specifications represented minimum 
        requirements; making significant cost trade-off 
        decisions on the OPC to balance capability and 
        affordability through extensive deliberations on speed, 
        range, boat launching requirements, and aviation 
        capability.

        OPC requirements are at ``threshold'' levels--the 
        lowest levels that can still meet mission demands. 
        Further de-scoping of OPC requirements will prevent the 
        Coast Guard from meeting operational need and achieving 
        effective maritime governance in all of our operating 
        areas, including those with more demanding 
        environmental conditions (Eastern/Western Pacific, Gulf 
        of Alaska, Bering Sea, and the Arctic).

        Additionally, the OPC acquisition strategy has 
        incorporated lessons learned from other acquisitions, 
        including the NSC, and has been deliberately formulated 
        to maximize affordability. For example, the NSC was a 
        sole source procurement using a cost plus fixed fee 
        contract type while the OPC is planned to use a fixed 
        price incentive firm target contract type specifically 
        tailored to maximize competition and incentivize 
        affordability while minimizing government risk.

    Mr. Hunter. If there are no further questions, I thank the 
witness--Admiral, thank you for your testimony--and the Members 
for their participation.
    I yield to Mr. Rice.
    Mr. Rice. Admiral, one thing that I have learned a lot 
about, being on this committee, and it is really not the 
subject so much today, but, from what I understand, there is a 
set of--with respect to international shipping, there is a set 
of international standards that comply worldwide. I can't 
remember the name of that set of standards. And then the United 
States has their own set of standards.
    And I have been inquiring of shipping companies as to why 
international carriers don't flag here, you know, why we have 
essentially lost our entire international shipping fleet over 
the last 50 years. And one of the reasons that always comes up 
is that our safety standards are so much higher than the 
international standards.
    Can you comment on that at all?
    Admiral Currier. Sir, I can provide a detailed answer for 
the record, but in general there is a U.N. organization called 
IMO, International Maritime Organization, centered in Europe. 
Most nations are participants in that, and they set a safety 
standard regime that we follow.
    As a matter of fact, ships, foreign-flag ships that come 
into our ports are routinely inspected for safety--safety of 
life at sea, basically, tenets of the IMO standards.
    So I think our safety standards are pretty well-aligned 
with international safety standards. But we can provide you a 
more detailed briefing or answer for the record.
    [The Coast Guard submitted the following information for 
the record:]

        The Coast Guard submitted a report to Congress in 
        September 2013, entitled ``Impediments to the United 
        States Flag Registry.'' As explained in that report, 
        the Coast Guard has researched available information on 
        the operating costs related to the design, construction 
        and operations relating to inspections for U.S.-flagged 
        merchant vessels. An analysis by the Maritime 
        Administration (MarAd) of the operating costs comparing 
        the costs of U.S.-flag vessels with foreign-flag 
        vessels has shown that ``U.S. flag carriers face a 
        significantly higher cost regime than do foreign flag 
        carriers'' (See MarAd, Comparison of U.S. and Foreign-
        Flag Operating Costs, September 2011, page 1). The 
        MarAd report identified operating costs, including 
        crew, stores and lubes, maintenance and repair, 
        insurance costs, and overhead costs, as potential cost 
        impediments to operating vessels under the U.S. flag. 
        The cost of design, construction and operations 
        relating to inspections was not separately identified 
        in the MarAd report.

        The Coast Guard has taken steps to make its regulations 
        less burdensome and more flexible, and to implement 
        improvements that could be made to the enforcement 
        process, while still ensuring a high level of safety 
        and environmental protection. As part of the Coast 
        Guard's regulatory reform initiative, the Coast Guard 
        published in the Federal Register (62 FR 51188) on 
        September 30, 1997, a final rule entitled 
        ``Harmonization with International Safety Standards.'' 
        This rulemaking amended U.S. regulations for both 
        inspected and uninspected vessels by removing obsolete, 
        unnecessary or excessive provisions, and harmonizing 
        regulations with international safety standards.

        In addition, the Coast Guard also developed the 
        Alternate Compliance Program (ACP) with the intent of 
        providing more autonomy to U.S-flagged shipowners to 
        utilize the services of classification societies to 
        perform plan review and inspection functions which have 
        historically been retained by the Coast Guard. Under 
        ACP, the Coast Guard retains authority to issue a 
        Certificate of Inspection (COI) to a U.S-flagged 
        vessel, while relying on the expertise of a 
        classification society to perform the inspection 
        functions that must be carried out to ensure U.S.-flag 
        vessels comply with both domestic and international 
        standards. This is similar to how many other nations 
        conduct safety oversight inspections for vessels under 
        their administrations.

        The Coast Guard strives to ensure our national 
        standards are consistent with new and revised 
        international standards. The Coast Guard's goal is to 
        quickly adopt the most recent design and engineering 
        requirements of the international conventions, and 
        delegate authority to recognized classification 
        societies in order to ensure that the U.S.-flag fleet 
        keeps pace with the rest of the international shipping 
        industry.

        For further details on these efforts, please refer to 
        the report to Congress dated September 03, 2013, 
        entitled ``Impediments to the United States Flag 
        Registry.''

    Mr. Rice. I would like to know if ours are--I just keep 
hearing that ours are very much more strict, and that is one of 
the reasons why our shipping fleet has dropped from 1,000 
American-flag ships in international commerce to 80.
    Admiral Currier. Sir, I couldn't comment yea or nay on 
that. But I will tell you that, in general, our safety 
standards are aligned with international IMO standards and that 
if there are individual company policies that are more 
stringent than that, I am not aware.
    But, in general, the safety regime is pretty well-evolved 
around the world, and we are not only in compliance but we are 
enforcing those regulations.
    Mr. Rice. Thank you, sir.
    Again, going back to the role of Congress in this, if there 
is some area in which you are bound by statute to safety 
regulations that are far more onerous, I sure want to hear 
about it and see if we can fix that.
    Admiral Currier. Yes, sir. We can provide you background 
information on that.
    Mr. Rice. Thank you, sir.
    Thank you, Chairman.
    Mr. Hunter. The gentleman yields.
    I recognize the ranking member.
    Mr. Garamendi. Yeah, I will try to do this quick.
    We were discussing earlier the C-27s, the $600 million that 
is not going to need to be spent on additional aircraft. And I 
have been trying to think this thing through. But in your 
future budget years, you are projecting that expenditure over a 
period of time--maybe it is $100 million a year, $50 million a 
year--going into the future. Is that correct?
    Admiral Currier. Well, currently, in the SIP that exists, 
capital projected accounts, we have not made accommodation for 
that class of aircraft past the 18 that are on contract.
    Mr. Garamendi. I am sorry, past the----
    Admiral Currier. The 18 aircraft that are currently on 
contract.
    Mr. Garamendi. So future budgets never anticipated the full 
purchase of the 40 force?
    Admiral Currier. Not at this point, sir. Not in the current 
4-year budget projection.
    Mr. Garamendi. Thank you.
    Mr. Hunter. There are no further questions.
    Thank you, Admiral, for your testimony.
    And this subcommittee stands adjourned.
    [Whereupon, at 11:17 a.m., the subcommittee was adjourned.]

</pre></body></html>
